                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

 Case Number: A13040052                                                        Page 1 ofl


         We received an allegation that a PI (the subject) 1 incorporated several paragraphs
         of verbatim text from an experimental proposal into his NSF proposal. 2 We found a
         copy of the updated, experimental proposal,3 which lists the subject as a co-author
         and spokesperson. Thus, as co-author of a non-separable document, he may use
         wording from the experimental proposal in his NSF proposal. Accordingly, there is
         no support for an allegation of plagiarism against the subject, and this case is
         closed with no further action taken.




              1
              2
              3




NSF OIG Form 2 (11102)
